   June 30, 2004




Acquisition
The Central Test and Evaluation
Investment Program
(D-2004-097)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at http://www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit, Audit Followup and Technical
  Support at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

CTEIP                 Central Test and Evaluation Investment Program
GAO                   General Accounting Office
JIM                   Joint Improvement and Modernization
OSD                   Office of the Secretary of Defense
REP                   Resource Enhancement Program
T&E                   Test and Evaluation
TTD&D                 Test Technology Development and Demonstration
          Office of the Inspector General of the Department of Defense
Report No. D-2004-097                                                       June 30, 2004
   (Project No. D2003AB-0082)

           The Central Test and Evaluation Investment Program

                                Executive Summary

Who Should Read This Report and Why? Test and evaluation officials who are
responsible for test investment of DoD test facilities should read this report to better
understand the criteria and award process for the Central Test and Evaluation Investment
Program.

Background. This report is in response to a request by the Director, Operational Test
and Evaluation, who is responsible for the oversight of test and evaluation facilities. The
objectives were to determine the degree to which Central Test and Evaluation Investment
Program funds were used to meet the needs of multi-Service test capabilities and whether
the funded projects were subsequently procured by the Services. We reviewed
59 projects that had received funding of approximately $856 million from FY 1990
through FY 2003.

Projects selected for the Central Test and Evaluation Investment Program must be
development and coordination projects geared toward multi-Service application. The
Services are expected to budget for the procurement of any system or test capabilities
developed in this program. Other program objectives are to increase interoperability and
interconnectivity among test centers and ranges and avoid unnecessary duplication.
Projects are selected from candidates submitted by the Services or developed from
initiatives proposed by the Office of the Secretary of Defense.

The Central Test and Evaluation Investment Program is differentiated by three
categories. Joint Improvement and Modernization projects address critically needed
investments in major functional areas of test and evaluation, and they comprise the
majority of the projects. Resource Enhancement Program projects are intended to
develop quick-reaction solutions to operational test problems that require immediate
development and funding. Test Technology Development and Demonstration projects
are intended to transition mature technologies from laboratories to satisfy test and
evaluation needs.

Results. The Central Test and Evaluation Investment Program has been successful in
satisfying multi-Service needs and transitioning projects to the Military Departments.
Through the Program, the Office of the Director, Operational Test and Evaluation has
completed 24 capabilities and assets and has 31 ongoing projects that, when completed,
should satisfy multi-Service test capabilities. Only four projects were terminated.

Management Comments and Audit Response. Although not required to comment, the
Principal Deputy Director, Operational Test and Evaluation and the Director, Air Force
Test and Evaluation Command provided comments on the report discussion. We
considered the Management Comments on the factual content of the report and made
changes where deemed appropriate. See the Finding section of the report for a discussion
of management comments and the Management Comments section of the report for the
complete text of comments.




                                           ii
Table of Contents

Executive Summary                                                              i

Background                                                                    1

Objectives                                                                    2

Finding
     Adequacy of the Central Test and Evaluation Investment Program Process   3

Appendixes
     A. Scope and Methodology                                                  8
         Management Control Program Review                                     8
         Prior Coverage                                                        9
     B. Ongoing Projects                                                      10
     C. Completed Projects                                                    14
     D. Terminated Projects                                                   19
     E. Report Distribution                                                   20

Management Comments
     Principal Deputy Director, Operational Test and Evaluation               23
     Air Force Test and Evaluation Command                                    24
Background
    This audit was requested by the Director, Operational Test and Evaluation. The
    objectives were to determine the degree to which Central Test and Evaluation
    Investment Program funds were used to meet the needs of multi-Service test
    capabilities and whether the funded projects were subsequently procured by the
    Services.

    Central Test and Evaluation Investment Program. The Central Test and
    Evaluation Investment Program (CTEIP) was established by the Department of
    Defense Appropriations Act, 1991, Public Law No. 101-511, Nov. 5, 1990. The
    corresponding language in Sen. REP No.101-521, 101st Cong., 2nd Sess. (1991)
    sought to improve the coordination and planning of investments in Test and
    Evaluation (T&E) facilities. Congress concluded that CTEIP should be a
    developmental and coordination program that is geared toward multi-Service
    application of any systems being developed. Specifically, allocating test
    resources on a corporate basis rather than on Service criticality will increase
    interoperability and interconnectivity among test centers and ranges. This
    approach will allow the T&E expertise to focus on test requirements and
    capabilities of joint initiatives that are of the highest priority and will eliminate
    unwarranted duplication of effort. CTEIP projects are assigned to the Services
    and Defense agencies for execution and implementation. A project has to meet
    three criteria to be included in the CTEIP.

           •   The project must be multi-Service.

           •   The funding must be used for developmental purposes.

           •   The funding must not be used to procure the developed test asset or
               capability.

    The ongoing and completed projects usually resulted in a one-of-a-kind test
    facility or test asset. T&E customers can then use these test facilities and test
    assets at the Major Range and Facilities Bases and thus avoid having to procure
    their own assets. By doing so, CTEIP has met the multi-Service purposes and
    avoided duplication.

    The Selection Process. The projects are selected from candidates submitted by
    the Services or developed from initiatives proposed by the Office of the Secretary
    of Defense (OSD). Proposed projects that originate from the Services are initially
    reviewed and evaluated at various levels of the Services’ T&E Executive Agent
    Structure and are then forwarded to OSD for consideration. CTEIP is
    differentiated by three categories: Joint Improvement and Modernization (JIM),
    Resource Enhancement Program (REP), and Test Technology Development and
    Demonstration (TTD&D). JIM projects address critically needed investments in
    major functional areas of T&E and comprise the majority of the projects funded
    under CTEIP. These projects are usually the largest in terms of funding and
    scope. REP projects are intended to be quick-reaction solutions to operational
    test problems that require immediate development and funding. TTD&D projects
    are intended to transition mature technologies from laboratories to satisfy test and


                                          1
    evaluation needs. We reviewed 31 ongoing projects with funding of
    $350.20 million; 24 completed projects that had been funded at $429.94 million,
    and 4 terminated programs that had received $76.29 million.

    Joint Improvement and Modernization Process. The JIM process begins when
    the T&E executive agent issues a Needs and Solutions Call to the Services and
    Defense agencies. The office of the T&E executive agent consists of the
    following members: test and reliance personnel, a test resource advisory group, a
    board of directors (Executive Secretariat Staff), Board of Directors Executive
    Secretariat, and the Board of Directors. This organization identifies the Needs
    and Solutions submitted by the Services and Defense agencies that have the
    potential of meeting CTEIP project criteria. The test and evaluation executive
    agent combines, prioritizes, and submits the proposals to the Director,
    Operational Test and Evaluation who considers validating them and including
    them in the Program Objective Memorandum.

    Resource Enhancement Program Process. The REP process begins when the
    Services and Defense agencies submit their proposals to the REP working group.
    The REP working group reviews, analyzes, prioritizes, and submits the nominated
    REP projects to the Deputy Director of Operational Test and Evaluation for
    Systems and Test Resources. In coordination with the OSD Test Investment
    Coordinating Committee, the Deputy Director makes the final recommendation to
    the Director on which subprojects to approve.

    Test Technology Development & Demonstration Process. The TTD&D
    nomination and selection process begins when the project director issues a Call
    for Proposal memorandum. The memorandum identifies areas of special interest
    for technology improvements based on DoD instrumentation requirements. The
    Service and Defense agencies’ coordinators submit proposals with their
    requirements to the OSD Test Investment Coordinating Committee. The
    Committee reviews and prioritizes the proposals before submitting them to the
    CTEIP program element manager who, in turn, forwards the proposals to the
    TTD&D working group for review. The working group in coordination with the
    project director evaluates, ranks, and recommends top projects to the CTEIP
    program element manager. The CTEIP program element manager uses the
    completed analyses of proposals and makes recommendations to the Deputy
    Director of Test and Evaluation for Resources and Ranges, who then makes the
    final recommendation to the Director, Operational Test and Evaluation for
    approval.


Objectives
    The overall audit objective was to review the Central Test and Evaluation
    Investment Program ( the Program). Specifically, we evaluated the degree to
    which the Program funds were used to meet the needs of multi-Service test
    capabilities and the degree to which projects funded by the Program were
    procured by the Services. See Appendix A for a discussion of the scope and
    methodology. See Appendixes B, C, and D for a list of the CTEIP projects
    reviewed.


                                        2
           Adequacy of Central Test and Evaluation
           Investment Program Process
           The Office of the Director, Operational Test and Evaluation, through the
           Central Test and Evaluation Investment Program, was effective in funding
           projects that satisfied multi-Service needs and that were used by the
           Military Departments. The Program funded 59 projects totaling $856.43
           million from FY 1990 through FY 2003. Twenty-four projects have been
           completed and 22 are being used by the Military Departments. In
           addition, as of October 2003, there were 31 ongoing projects which, when
           completed, will have multi-Service capabilities. Only four projects were
           terminated before transition. The completed projects were successful
           because the Program process is well structured and includes stringent
           reviews which facilitate effective management of the projects. As a result,
           the DoD has achieved tangible benefits, through the CTEIP, that are
           demonstrated and in place on the nation’s ranges and test facilities. In
           addition, the partnership between the Office of the Director, Operational
           Test and Evaluation and the Services allows this Program to provide
           increased interoperability among DoD ranges.


CTEIP Management
    The CTEIP management has focused on getting the best return on test
    investments and making the most efficient use of test assets that are being
    depleted. CTEIP facilitates the funding of T&E investments that encourage joint
    development and implementation of new test capabilities. The specific objectives
    of the Program are to preserve and enhance DoD test capabilities and to
    proactively respond to the problem of increasing requirements and declining
    assets. CTEIP achieves these objectives by doing the following:

           •   Supporting joint projects that apply state-of-the-art technologies to
               correct shortfalls in DoD test and evaluation capabilities and improve
               the efficiency of the test process;

           •   Maximizing efficient inter-Service use of test assets by improving
               interoperability and interconnectivity among test centers, ranges, and
               facilities;

           •   Establishing and maintaining a program to develop test and evaluation
               technology to investigate, develop, and produce prototypes of
               advanced technologies for application to T&E that reduce resource
               requirements such as radio spectrum, manpower, operating expenses,
               maintenance requirements, and costs;

           •   Achieving interoperability across the Services in test instrumentation,
               targets, and threat simulators;




                                         3
           •   Developing, validating, and integrating modeling and simulation with
               open-air testing to provide timely, accurate, and cost-effective results;

           •   Exploiting capabilities in mobile test instrumentation as an alternative
               to fixed facilities; and

           •   Providing resources to respond to critical near-term shortfalls in
               operational test capabilities.

    CTEIP is a forum for DoD T&E participants with differing interests to come
    together and make corporate investment decisions on test investments that
    improve test capabilities. As a result, the Office of the Director, Operational Test
    and Evaluation, through the Program, has effectively funded 59 projects totaling
    $856.43 million from FY 1990 through FY 2003. Of the 59 projects funded,
    31 are ongoing, 24 are completed, and 4 were terminated.


Ongoing Projects
    We reviewed 31 ongoing projects with expenditures of approximately
    $350 million; all of these ongoing projects will serve multiple purposes for the
    Military Departments. The 31 projects included 19 JIM projects, 7 REP projects,
    and 5 TTD&D projects. The complete list of ongoing projects is included in
    Appendix B.

    The Contamination Avoidance Detector Test Suite, the Airborne Icing Tanker,
    and the Computed Tomography Capability are examples of ongoing projects that
    were approved. When completed, the Contamination Avoidance Detector Test
    Suite, the Airborne Icing Tanker, and the Computed Tomography Capability
    assets will be available to conduct various tests at the respective ranges for multi-
    Service purposes.

    The Contamination Avoidance Detector Test Suite. The Contamination
    Avoidance Detector Test Suite is a JIM project being developed at Dugway
    Proving Grounds in Utah. The purpose of the project is to develop
    instrumentation and facilities that incorporate the latest chemical-biological
    technologies to generate, collect, and analyze operational and developmental test
    data under realistic threat scenarios. The chemical-biological capability for test
    ranges is essential because of the increasing threat of chemical-biological warfare
    facing the warfighter on the battlefield.

    The Airborne Icing Tanker. The Airborne Icing Tanker is a JIM project being
    executed at the Air Force Test Flight Center in California. When completed, the
    Tanker will provide test capabilities for DoD aircraft under various simulated
    icing conditions. Aircraft icing can distort the flow of air over the wing of an
    aircraft to the extent that it will affect the quality of flight and even cause engine
    stoppage. The Airborne Icing Tanker will use a controlled environment to
    simulate the effects of aircraft icing caused by natural rain. This testing will help
    reduce the risk of fatalities and the loss of equipment.



                                          4
           The Airborne Icing Tanker has experienced some schedule slips caused by delays
           in the delivery of parts to the Air Force Test Flight Center and Eglin Air Force
           Base that subsequently changed the initial operational completion date from
           FY 2002 to FY 2004.

           The Computed Tomography Capability. The Computed Tomography
           Capability is a TTD&D project being executed at China Lake, California, and will
           provide test capabilities using technology similar to that of the Computed
           Imaging Tomography scan used in the medical field. The Computed Tomography
           Capability will provide internal images of munitions and indicate any flaws or
           anomalies within the weapon system not able to be seen by the naked eye. The
           entire list of ongoing projects is in Appendix B.


Completed Projects
           Twenty-four projects totaling approximately $429 million have been completed
           and 22 are being used to satisfy multi-Service test capabilities at the test ranges.
           The 24 projects included 17 JIM projects, 5 REP projects, and 2 TTD&D
           projects. Since the early 1990s, emerging technology has sometimes dictated the
           revision of project requirements as the projects evolved. Examples of
           successfully transitioned projects are shown as follows.

           The Smart Munitions Test Suite. The Smart Munitions Test Suite was
           originally designed to be a multi-object instrumentation tracking system that
           could monitor the munitions dispensed from an artillery shell missile from launch
           to impact. The Smart Munitions Test Suite technology became obsolete and was
           not fielded according to the initial requirements; however, the instrumentation-
           tracking concept used in the Smart Munitions Test Suite facilitated the creation of
           four new systems.

           The Multi-Object Tracking Radar. The Multi-Object Tracking Radar was one
           of the new systems developed from the Smart Munitions Test Suite. The Army
           led the development of the technology used in the Multi-Object Tracking Radar at
           the White Sands Missile Range. The Program Manager stated that the Air Force,
           the Missile Defense Agency, and foreign countries have procured the Multi-
           Object Tracking Radar.

           The IBIS1 Hammer. The IBIS Hammer is another example of a successfully
           completed project. The IBIS Hammer is a mobile, medium-range, surface-to-air,
           missile radar system designed to defend ground forces from aerial attack by fixed
           and rotary wing aircraft and high precision guided weapons. The system has an
           integrated local-frequency-scanned Target Acquisition Radar and phased array
           Target Engagement Radar that can track two targets simultaneously. The Target
           Acquisition Radar acquires, prioritizes, and hands off targets of opportunity to the
           Target Engagement Radar, which engages targets one at a time. A significant
           objective for the IBIS Hammer was the development of a common system
           interface design for the testing of assets at either the Nellis Test and Training
1
    IBIS is the full name of the project, not an acronym.



                                                        5
    Range at Nellis Air Force Base in Nevada or the Electronic Combat Range at
    China Lake. The Navy installed the instrumentation package on the IBIS
    Hammer at the Electronic Combat Range. The IBIS Hammer was delivered to the
    Electronic Combat Range in May 2000 and was fielded in October 2001. The
    entire list of completed projects is in Appendix C.


Terminated Projects
    Four projects that the Office of the Director, Operational Test and Evaluation
    funded at approximately $76 million were terminated without being successfully
    completed.

    The Advanced Multiple Object Acquisition System. The Advanced Multiple
    Object Acquisition System project was initiated to develop the next generation
    multi-target acquisition and tracking system. The intention of the project was to
    develop a system to track large numbers of low radar cross-section, high velocity
    targets, decoys, and debris. The Advanced Multiple Object Acquisition System
    program was cancelled on November 14, 2001, because it had become too
    expensive to fund.

    The Decade Radiation Test Facility-Enhanced. The Decade Radiation Test
    Facility was to enhance the capability of the basic Decade X-ray effects simulator
    at the Arnold Engineering Development Center. The enhancement would have
    enabled testing of systems and components in multiple radiation environments
    that were representative of what was expected in a nuclear encounter. The Deputy
    Director, Systems and Test Resources terminated the Decade Radiation Test
    Facility-Enhanced on July 31, 2003. The decision was based on several major
    concerns with the project. One concern was that the plan focused on meeting a
    near-term capability rather than one that would satisfy customer requirements
    beyond 2010. Another concern was that the facility would not be operated as part
    of a Major Range and Test Facility Base, and there did not appear to be a
    customer base that was adequate to sustain economic operation of the facility.
    The Global Positioning System Validation. The Global Positioning System
    Validation Program Office was established to develop a satellite test facility for
    the next generation of global positioning systems. The project received
    $5.025 million in funding for FYs 2000 through 2002, with an estimated total cost
    of $7.3 million. However, when the contract was awarded during FY 2001,
    problems arose because sufficient funding was not available. The program office
    terminated the contract for convenience as it was unable to find another sponsor
    to provide the additional funding needed to complete the project . The contractor
    did, however, deliver a number of nearly complete system components to the
    Government.

    The Next Generation Target Control System. The Next Generation Target
    Control System was designed to place aerial and surface targets in realistic
    scenarios for weapon system evaluation. The Office of the Director, Operational




                                        6
    Test and Evaluation incurred approximately $57 million in costs on the project
    before it was cancelled in 1998 because the development of the needed
    technologies became too costly.


Conclusion
    The CTEIP program element manager has been effective in overseeing the CTEIP
    because of the well-structured process in place that includes stringent review of
    projects to ensure that they meet multiple-Service uses. The process also requires
    active participation by all concerned parties when potential CTEIP projects
    originate in the Services and are initially reviewed and evaluated at various levels
    of the Services’ T&E Executive Agent structure.


Management Comments and Audit Response
    Management Comments. Although not required to comment, the Principal
    Deputy Director, Operational Test and Evaluation requested that a footnote be
    added to show funding for five ongoing projects programmed to receive FY 2004
    and out year funds and that the Decade Radiation Test Facility-Enhanced funding
    be changed to include only expenditures before it was terminated.

    Audit Response. The scope of this audit, as stated in Appendix A, was from
    FY 1990 through FY 2003. Footnotes were used to distinguish project funding
    beyond FY 2003 or project funding received at a particular test facility. We
    revised the funding shown for the Decade Radiation Test Facility-Enhanced.

    Management Comments. Although not required to comment, the Director, Air
    Force Test and Evaluation Command requested that a fourth project be added to
    the terminated projects in Appendix D. The Director stated that funding totals in
    Appendix D included funds to complete a project that were not expended, but
    were programmed for the project’s completion. The Director also stated that the
    Digital Video Systems Development was not funded and did not produce a
    product.

    Audit Response. We revised Appendix D to include a fourth project that was
    terminated and revised funding to include only funds that were expended before
    projects were terminated. However, the Digital Video Systems Development was
    funded and is producing an effective product.




                                         7
Appendix A. Scope and Methodology
    The Director, Operational Test and Evaluation requested an audit of the Major
    Range and Test Facility Base and the CTEIP. The Major Range and Test Facility
    Base topics were discussed in the Office of the Inspector General of the
    Department of Defense Report No. D-2004-035, “Major Range and Test Facility
    Base,” December 8, 2003. Specifically, for this audit, we reviewed the CTEIP to
    determine the degree to which the funding was used to meet the needs of multi-
    Service test capabilities and the degree to which developed test capabilities of
    projects have subsequently been procured by the Services. We reviewed the
    guidance used for the execution of the CTEIP and the congressional language that
    established CTEIP. We reviewed the procedures and processes for how projects
    were submitted and approved. We interviewed personnel and gathered
    information from the Office of the Director, Operational Test and Evaluation. We
    visited 11 different locations that manage projects and receive funds, and when
    possible, we toured the test facilities. We verified the funding documentation
    received at each location with the CTEIP program element manager; however, we
    did not validate the accuracy of the data obtained to source documents. We
    interviewed personnel and gathered information about various CTEIP projects
    that began in or were completed from FY 1990 through FY 2003. The 11
    locations that we visited were White Sands Missile Range; Holloman Air Force
    Base; Aberdeen Test Center; Naval Air Warfare Center-Point Mugu; Naval Air
    Warfare Center-China Lake; Naval Air Warfare Center Patuxent River; Atlantic
    Undersea Test and Evaluation Center; Air Armament 46th Test Wing; Arnold
    Engineering Development Center; Air Force Flight Test Center; and the Program
    Manager for Instrumentation, Targets and Threat Simulators.

    We performed this audit from April 2003 through March 2004 in accordance with
    generally accepted government auditing standards.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the GAO high-risk area to Overcome Support Infrastructure Inefficiencies.


Management Control Program Review
    We did not review the management control program because it was not an
    announced objective. The audit was conducted in response to a request by the
    Director, Operational Test and Evaluation that did not include a review of the
    management control program.




                                        8
Prior Coverage
      During the last 5 years, the General Accounting Office (GAO) and the Inspector
      General of the Department of Defense (IG DoD) have issued two reports related
      to the conditions of military facilities. Unrestricted GAO reports can be accessed
      over the Internet at http://www.gao.gov. Unrestricted IG DoD reports can be
      accessed at http://www.dodig.osd.mil/audit/reports.

GAO
      GAO Report No. GAO-03-274, “Defense Infrastructure: Changes in Funding
      Priorities and Strategic Planning Needed to Improve the Condition of Military
      Facilities,” February 19, 2003


IG DoD

      IG Report No. D-2004-035, “The Major Range and Test Facility Base,”
      December 8, 2003




                                           9
Appendix B. Ongoing Projects

                     JIM                                          Lead                    Funding
                    Projects                                     Service               ($ in millions)

    1. Advanced Instrumentation Data and
                                                             .   Air Force                   30.001
       Control System.
    2. Airborne Icing Tanker.                                Air Force                        11.25

    3. Advanced Range Telemetry.                             Air Force                        19.70

    4. Airborne Separation Video System.                          Navy                       41.182
    5. Contamination Avoidance Detection
                                                                  Army                         4.30
       Test Suite.
    6. Digital Video Laboratory.                             Air Force                         2.503

    7. Digital Video Systems Development..                        Army                         4.00

    8. Enhanced Flight Termination.                          Air Force                         9.304
 9. Electromagnetic Environmental Effects
                                                                  Navy                        15.40
    Generating System.
10. Electromagnetic Transient Test &
                                                                  .   Navy                     9.60
    Evaluation Facility.
11. Enhanced Range Application Programs.                     Air Force                         2.805

12. Foundation Initiative 2010                                    Army                       25.706

1
  Includes funding to complete project beyond FY 05.
2
  Amount includes Air Force funding.
3
  Amount represents funding at Naval Air Warfare Center, Patuxent River only.
4
  Includes funding to complete project beyond FY 06.
5
  Amount represents funds received by the Air Armament Center 46th Test Wing, Eglin Air Force Base only.
6
  Amount reflects funding received by the Project Manager for Instrumentation, Targets, and Threat Simulators.




                                                      10
Appendix B. Ongoing Projects (cont’d)

                  JIM Projects                                Lead                       Funding
                   (continued)                               Service                  ($ in millions)


13. High Speed Massive Memory                                  Army                          7.527

14. Joint Advanced Missile Instrumentation                     .   Navy                     23.00
15. Joint Command, Control,
    Communication, Computers,
    Intelligence, Surveillance, and                            Navy                         35.40
    Reconnaissance Test & Evaluation
    Capability.
16. Joint Installed System Test Facility
                                                          Navy/Air Force                    34.29
    Preplanned Product Improvement
17. Land Sea Vulnerability Test
                                                               Army                         18.53
    Capabilities.
18. Roadway Simulator.                                         Army                         33.00
19. Tri-Service Signature Measurement and
                                                             Air Force                       7.708
    a Database System .
                                                                                 Total $335.17




7
    Amount is included on Ongoing and Completed charts.
8
    Amount reflects funding from FY 1997 through FY 2003 at the Atlantic Undersea Test and Evaluation Center
    only.



                                                       11
Appendix B. Ongoing Projects (cont’d)

                        REP                                      Lead                          Funding
                       Projects                                 Service                     ($ in millions)

1. Active Electronically Scanned Array
   Jammer                                                         .   Navy                       2.79

2. Threat Signals A                                            Air Force                         1.05

3. Fire and Forget Missile.                                       Navy                           2.80

4. Global Air Traffic Management                               Air Force                          .53

5. Seeker Integration.                                            Navy                           1.28

6. Shallow Water Acoustic Target.                                 Navy                            .211

7. Weapons Set to Hit Targets.                                    Navy                            .092

                                                                                       Total $8.75




1
    Amount reflects the funding received at Atlantic Undersea Test and Evaluation Center.
2
    Ibid.



                                                        12
Appendix B. Ongoing Projects (cont’d)

                     TTD&D                                  Lead               Funding
                     Projects                              Service          ($ in millions)

1. Common Events Network Test
                                                           Air Force             1.40
   Instrumentation System
2. Computer Topography Capability                            .   Navy              .88

3. Miniature Optical Nodes of Testing.                       Navy                1.30

4. Multi-static Radar Receiver                               Army                1.801

5. Universal Radar Targets Simulator.                        Army                  .90

                                                                         Total $6.28

                                        Total of all 31 Ongoing Projects Total $350.20
                                                      .




1
    Amount includes funding for FY 2004 and money received from Army.



                                                     13
 Appendix C. Completed Projects

                      JIM                             Lead          Funding
                     Projects                        Service     ($ in millions)

 1. Aerial Cable Test Capabilities                    Army               20.90
 2. Air Combat Environment Test and
                                                          Navy       62.091
    Evaluation Facility.

 3. Anti Radiation Missile                                Navy           21.50

 4. Common Airborne Instrumentation
                                                      .   Navy           50.00
    System.
 5. Enhanced Integrated Air Defense System
    Messaging Stimulation/Stimulation                Air Force             .90
    Environment.
 6. Holloman High Speed Test Track.                  Air Force           19.33
 7. Infrared Radar Plume Measurement
                                                      Army                9.50
    Capability.
 8. Joint Installed Systems Test Facility
                                                          Navy           84.82
    Upgrade.
 9. Target/Threat Validation                              Navy           6.001

10. Translated GPS Range System.                     Air Force           16.30
11. Transportable Range Augmentation and
                                                      .   Army       .   20.11
    Control System
12. Hardened Subminiature Telemetry and
                                                          Navy       17.122
    Sensor System




 1
     Amount reflects CTEIP funding only.
 2
     Amount reflects funding through FY 2002.



                                                14
Appendix C. Completed Projects (cont’d)

                  JIM Projects                              Lead             Funding
                                                           Service        ($ in millions)

13. High Speed Massive Memory.                              Army                7.523
14. Real-Time Digitally Controlled
                                                           Air Force           2.70
    Analyzer Processor
15. Smart Munitions Test Suite                              Army              39.90
    .

                                                                       Total $378.69




3
    Amount is included on Ongoing and Completed charts.



                                                      15
Appendix C. Completed Projects (cont’d)

                 REP                          Lead           Funding
                Projects                     Service      ($ in millions)

1. Countermeasure Threat Emulator             Navy             2.40
2. Instrumentation of the IBIS Hammer
                                              Navy             2.02
   System
3. Memorex.                                  Air Force           .84

4. SA-XX Modification                         Navy             1.20

5. Weapons Analysis Facility.                 Navy             4.50

                                                         Total 10.96




                                        16
Appendix C. Completed Projects (cont’d)

                TTD&D                          Lead          Funding
                Projects                      Service     ($ in millions)

1. Next Generation Instrumentation Bus
                                               Navy              .73
   Standard

2. Soft Impact Location Capability             .   Navy         1.34

                                                          Total 2.07




                                         17
Appendix C. Completed Projects (cont’d)

                        JIM                                      Lead                      Funding
                      Projects1                                 Service                 ($ in millions)

1. Joint Installed System Test Facilities-
                                                                     .   Navy               28.22
   Generic Range Target Generator
2. Magnetic Levitation Upgrade                                  Air Force                   10.00

                                                                                Total       38.22

                                       Total 22 Completed & Fielded Projects $ 391.72
                                       Total 2 Completed/Not Fielded Projects $ 38.22
                                                           Combined Totals $ 429.94
                                                          .




1
    Reflects two JIM projects that were completed but not fielded.



                                                         18
Appendix D. Terminated Projects

                 Jim                                 Lead             Funding
                Projects                            Service        ($ in millions)

1. Advanced Multiple Objects Acquisition
                                                     Army             1.94
   System
2. Decade Radiation Test Facility-
                                                Air Force            12.32
   Enhanced
3. Global Positioning System Signal
                                                Air Force             5.03
   Violation.
4. Next Generation Target Control System        .   Air Force        57.00

                                                                Total 76.29




                                           19
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
Under Secretary of Defense for Personnel and Readiness
Vice Chairman of the Joint Chiefs of Staff
   Assistant Secretary of Defense (Command, Control, Communications, and
      Intelligence)
Director, Operational Test and Evaluation

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Commander, U.S. Army Aberdeen Test Center
Commander, U.S. Army Dugway Proving Ground
Commander, U.S. Army Yuma Proving Ground
Commanding General, U.S. Army White Sands Missile Range
Commander, Reagan Test Site
Auditor General, Department of the Army

Department of the Navy
Commander, Naval Air Warfare Center – Aircraft Division
Commander, Naval Air Warfare Center – Weapons Division
Commander, Atlantic Undersea Test and Evaluation Center
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Commander, Arnold Engineering Development Center
Commander, Air Force Flight Test Center
Commander, 46th Test Wing, Eglin Air Force Base
Auditor General, Department of the Air Force

Other Defense Organization
Commander, Joint Interoperability Test Command, Defense Information Systems Agency

Non-Defense Federal Organization
Office of Management and Budget


                                         20
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology Policy, Intergovernmental Relations, and the
  Census, Committee on Government Reform




                                      21
Operational Test and Evaluation Comments




                     23
Air Force Test and Evaluation Command
Comments




                     24
Team Members
The Office of the Deputy Inspector General for Auditing of the Department of
Defense, Acquisition Management prepared this report. Personnel of the Office
of the Inspector General of the Department of Defense who contributed to the
report are listed below.

Bruce A. Burton
Michael E. Simpson
Ronald L. Nickens
Thomas J. Hilliard
Carrie J. Gravely
Timothy Miller
Dana K. Johnson
Constance H. Wojtek
Patrick M. Sampson
Gloria Parker
Amber M. Lyons
Shavon M. Carter
Jacqueline N. Pugh
Monica L. Noell
